CERTIFICATE OF SERVICE
No. 19-267
Our Lady of Guadalupe School,
Petitioner,
v.
Agnes Morrissey-Berru,
Respondent.
I, Eric D. McArthur, do hereby certify that, on this thirtieth day of
September, 2019, I caused three copies and an electronic copy of the Brief of Amici
Curiae General Conference of Seventh-day Adventists and Jewish Coalition for
Religious Liberty in Support of Petitioner in the foregoing case to be served by
overnight commercial carrier, and by email, on the following parties:
ERIC CHRISTOPHER RASSBACH
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, N.W.
Suite 700
Washington, D.C. 20036
erassbach@becketlaw.org
(202) 955-0095
Counsel for Petitioner Our Lady of
Guadalupe School

JOSEPH M. LOVRETOVICH
JML Law
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
jml@jmllaw.com
(818) 610-8800
Counsel for Respondent Agnes
Morrissey-Berru
/s/ Eric D. McArthur
ERIC D. MCARTHUR
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8000

